DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Inspector General


                                                                          Region IX
                                                                          Office of Audit Services
                                                                                 h
                                                                          90 - i Street, Suite 3-650
 JA 26                                                                    San Francisco, CA 94103




Report Number: A-09-09-00031

Mr. D. Jeffrey Morrow
Senior Vice President, Corporate Benefits Manager
Union Bank of California, N.A.
400 California Street, 10th Floor
San Francisco, California 94104

Dear Mr. Morrow:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of Retiree Drug Subsidy Plan Sponsor Union
Bank of California, N .A., for Plan Year Ended December 31, 2006." We will forward a copy
of this report to the HHS action official noted below.

Pursuant to the principles ofthe Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, OIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS
action official. Please refer to report number A-09-09-00031 in all correspondence.

                                             Sincerely,

                                       /-YL.~
                                       ~/j'
                                              ~)

                                             Lori A. Ahlstrand
                                             Regional Inspector General
                                              for Audit Services


Enclosure


HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





          REVIEW OF

    RETIREE DRUG SUBSIDY

        PLAN SPONSOR

  UNION BANK OF CALIFORNIA,

                N.A.,

     FOR PLAN YEAR ENDED

      DECEMBER 31,2006





                    Daniel R. Levinson

                     Inspector General


                      January 2009

                      A-09-09-00031

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity ofthe Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OlG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND


Section 101 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(P.L. No. 108-173) established the Retiree Drug Subsidy (RDS) program effective
January 1,2006. Under the program, the Centers for Medicare & Medicaid Services (CMS)
makes subsidy payments to sponsors (employers and unions) of qualified retiree prescription
drug plans for qualifying retirees covered under the plans. A qualifying covered retiree is a
Medicare Part D-eligible individual who is not enrolled in a Part D plan but who is covered by a
qualified retiree prescription drug plan. The subsidy payments for each qualifying covered
retiree generally equal 28 percent of allowable retiree drug costs.

Medicare requires that the sponsor of a qualified retiree prescription drug plan submit an RDS
application to CMS each year. As part of the application process, plan sponsors must submit a
list of qualifying covered retirees. The submitted list should include retiree identification
information, as well as the plan sponsor's coverage effective and termination dates. Plan
sponsors, or their vendors, must accumulate retiree drug costs and prepare and submit cost
reports to CMS before requesting subsidy payments. CMS created the RDS secure Web site as a
secure portal for plan sponsors participating in the subsidy program to submit RDS applications
and requests for payment.

Union Bank of California, N.A. (Union Bank), is a full-service commercial bank headquartered
in San Francisco, California, that offers prescription drug coverage to its retired employees. For
plan year 2006, Union Bank submitted the cost report to CMS. Union Bank received $626,557
in plan year 2006 subsidy payments based on reported gross retiree drug costs of approximately
$3.4 million and allowable retiree costs of approximately $2.2 million.

OBJECTIVES

Our objectives were to determine whether Union Bank (1) met the requirements to be a plan
sponsor, (2) established controls to ensure that drug subsidy costs were correctly reported, and
(3) established administrative safeguards over retiree data included in the RDS secure Web site.

SUMMARY OF RESULTS

Union Bank (1) met the requirements to be a plan sponsor, (2) established controls to ensure that
drug subsidy costs were correctly reported, and (3) established administrative safeguards over
retiree data included in the RDS secure Web site. Therefore, we are not making any
recommendations to Union Bank.
                           TABLE OF CONTENTS



INTRODUCTION                                   1


    BACKGROUND                                 1

        Retiree Drug Subsidy                   1

        Plan Sponsor Requirements              1

        Qualifying Covered Retirees            1

        Retiree Drug Subsidy Secure Web Site   2

        Union Bank of California, N .A         2


    OBJECTIVES, SCOPE, AND METHODOLOGY         2

         Objectives                            2

         Scope                                 3

         Methodology                           3


RESULTS OF REVIEW                              4





                                      11
                                                   INTRODUCTION


BACKGROUND

Retiree Drug Subsidy

Section 101 of the Medicare Prescription Drug, Improvement, and Modernization Act of2003
(P.L. No. 108-173) established the Retiree Drug Subsidy (RDS) program effective
January 1, 2006. Under the program, the Centers for Medicare & Medicaid Services (CMS)
makes subsidy payments to sponsors (employers and unions) of qualified retiree prescription
drug plans for qualifying retirees covered under the plans. A qualifying covered retiree is a
Medicare Part D-eligible individual who is not enrolled in a Part D plan but who is covered by a
qualified retiree prescription drug plan.

The subsidy payments for each qualifying covered retiree generally equal 28 percent of
allowable retiree drug costs. Allowable retiree drug costs are based on gross retiree costs
between a cost threshold and a cost limit, minus any price concessions such as discounts or
rebates.

Plan Sponsor Requirements

Medicare requires that the sponsor of a qualified retiree prescription drug plan submit an RDS
application to CMS each year. The application must include identifying information for the plan
sponsor, an actuarial attestation that the actuarial value of the retiree prescription drug coverage
under the plan is at least equal to the actuarial value of the defined standard prescription drug
benefit under Medicare Part D, a list of qualifying covered retirees and identifying information,
and a sponsor agreement signed by an authorized representative of the plan sponsor.

Qualifying Covered Retirees

As part of the application process, plan sponsors must submit a list of qualifying covered
retirees. The submitted list should include retiree identification information, as well as the plan
sponsor's coverage effective and termination dates. l To process a retiree file, CMS queries the
Medicare Beneficiary Database and determines whether the individual is a qualifying covered
retiree eligible for the subsidy based on Medicare entitlement. CMS then determines the periods
of time during the plan year when the retiree is eligible for the subsidy. CMS includes the
subsidy effective and termination dates in the retiree response file that it returns to the plan
sponsor.

CMS recommends that plan sponsors submit updated retiree files periodically to reflect (1) new
retirees not reported previously, (2) updates to previously accepted retiree records, (3) deletions
for previously accepted retiree records, and (4) resubmissions. Each time a plan sponsor submits
an updated retiree file, CMS prepares a response file. CMS also sends plan sponsors a


IThe plan sponsor's coverage effective and termination dates represent the dates that the plan sponsor provided the
retiree with coverage under the qualified retiree prescription drug plan.


                                                          1

notification file when an event occurs-such as a retiree's death or enrollment in Medicare
Part D-that may affect a plan sponsor's ability to receive the subsidy for a retiree.

Plan sponsors, or their vendors, must accumulate retiree drug costs and prepare and submit cost
reports to CMS before requesting subsidy payments. Plan sponsors may elect to receive interim
subsidy payments based on costs reported to date. A plan sponsor receiving interim payments is
required to reconcile interim subsidy payments within 15 months after the end of its plan year.
CMS makes any necessary adjustments to interim payments for the plan year when the
reconciliation is completed.

Because plan sponsors submit retiree costs to CMS on an aggregate (rather than an individual
retiree) basis, plan sponsors must carefully manage retiree response and notification files to
ensure that costs are accumulated only for qualifying covered retirees during valid subsidy
periods.

Retiree Drug Subsidy Secure Web Site

CMS, through its contractor ViPS, Inc., created the RDS secure Web site as a secure portal for
plan sponsors participating in the subsidy program to submit RDS applications and requests for
payment. Plan sponsor personnel requiring access to the secure Web site are assigned roles,
including authorized representative, account manager, actuary, and designee. The authorized
representative or account manager can assign designees various duties, including completing
portions of the RDS application, submitting retiree data, and requesting subsidy payments.

Union Bank of California, N.A.

Union Bank of California, N.A. (Union Bank), is a full-service commercial bank headquartered
in San Francisco, California, that offers prescription drug coverage to its retired employees.

Using information from its medical plan enrollment file, Union Bank creates a list of
RDS-eligible retirees. Union Bank's third-party vendor then downloads the list to accumulate
retiree costs and to prepare cost reports. For plan year 2006, Union Bank submitted the cost
report to CMS. Union Bank submitted a list of 1,278 retirees for its plan year 2006 application
and received $626,557 in plan year 2006 subsidy payments based on reported gross retiree drug
costs of approximately $3.4 million and allowable retiree costs of approximately $2.2 million.
Union Bank reconciled its plan year 2006 subsidy payments on March 21,2008.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether Union Bank (1) met the requirements to be a plan
sponsor, (2) established controls to ensure that drug subsidy costs were correctly reported, and
(3) established administrative safeguards over retiree data included in the RDS secure Web site.




                                                2

Scope

We reviewed Union Bank's plan year 2006 RDS application, retiree lists, retiree response and
notification files, and final cost report. We limited our review to determining whether Union
Bank reported drug costs for qualifying covered retirees. We did not perform a review to
determine the allowability of the drug costs reported. We reviewed the RDS secure Web site
users associated with Union Bank's applications for plan year 2006.

Our objectives did not require an understanding or assessment of the complete internal control
system at Union Bank. We limited our review of internal controls to obtaining an understanding
of Union Bank's process for monitoring and updating its retiree files and coordinating with its
third-party vendor to ensure that costs claimed for subsidy payments represented costs for
qualifying covered retirees.

We performed our fieldwork at Union Bank's office in San Francisco, California, from
June 2008 through January 2009.

Methodology

To accomplish our objectives, we:

   •	   reviewed applicable Federal laws and regulations, Medicare program guidance, and the
        American Academy of Actuaries' (AAA) guidance;

   •	   met with Union Bank's actuary and reviewed his workpapers to verify that the actuary
        had completed and submitted the attestation in accordance with CMS and AAA guidance;

   •	   reviewed Union Bank's notice of creditable coverage sent to Part D-eligible retirees for
        the period beginning January 1,2006;

   •	   reviewed Union Bank's 2006 plan year RDS application to determine whether the

        information provided was complete, accurate, and submitted to CMS by the

        October 31, 2005, deadline and to verify that the application was approved;


   •	   selected a judgmental sample of 50 plan year 2006 retirees for whom Union Bank

        reported costs and received subsidy payments;


   •	   reviewed information from the Medicare Beneficiary Database to determine whether the
        sampled retirees were eligible for Medicare and Part D and not enrolled in a Part D
        prescription drug plan;

   •	   reviewed documentation provided by Union Bank to determine whether the sampled
        retirees met Union Bank's criteria for retiree health coverage and were enrolled in a
        retiree health plan approved for the RDS;




                                                 3

   •	   met with Union Bank personnel responsible for the RDS process to obtain an
        understanding of the application process and their procedures for submitting retiree files
        to CMS and processing retiree response and notification files received from CMS;

   •	   reviewed Union Bank's plan year 2006 enrollment files and response and notification
        files to determine actions that the plan sponsor had taken to remove unqualified retirees
        from the RDS program;

   •	   reviewed the plan year 2006 final cost report submitted by Union Bank's vendor to
        determine the total gross drug costs submitted and the total subsidy payments received by
        Union Bank; and

   •	   identified Union Bank's secure Web site users for the 2006 plan year's application and
        determined whether the users were assigned and registered in accordance with program
        policies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                    RESULTS OF REVIEW

Union Bank (1) met the requirements to be a plan sponsor, (2) established controls to ensure that
drug subsidy costs were correctly reported, and (3) established administrative safeguards over
retiree data included in the RDS secure Web site. Therefore, we are not making any
recommendations to Union Bank.




                                                 4

